                                                                     C-IN-OSM-0044-2001

            United States Department of the Interior

                             Office of Inspector General
                                   Washington, D.C. 20240




                                                                            March 15, 2002

Memorandum

To:      Director, Office of Surface Mining Reclamation and Enforcement

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Office of Surface Mining Reclamation
         and Enforcement’s Financial Statements for Fiscal Years 2001 and 2000
         (No. 2002-I-0021)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Office of Surface Mining Reclamation and Enforcement’s (OSM) financial
statements for fiscal year 2001. The contract required that KPMG audit be conducted in
accordance with the Government Auditing Standards issued by the Comptroller General
of the United States of America; Office of Management and Budget Bulletin 01-02, Audit
Requirements for Federal Financial Statements; and the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual. The
Office of Inspector General (OIG) is responsible for the opinion on the balance sheet and
related notes for fiscal year 2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on the OSM’s financial statements or on conclusions about the
effectiveness of internal controls or on conclusions about compliance with laws and
regulations. KPMG is responsible for the auditors’ report on the fiscal year 2001
financial statements (Attachment 1) and for the conclusions expressed in the report.
However, our review disclosed no instances where KPMG did not comply in all material
respects with the Government Auditing Standards.

        In its audit report dated December 21, 2001, KPMG stated that in its opinion the
OSM’s financial statements for fiscal year 2001 present fairly, in all material respects, the
financial position of the OSM as of September 30, 2001, and its net cost of operations,
changes in net position, budgetary resources, and reconciliation of net cost of operations
to budgetary obligations for the year then ended in conformity with accounting principles
generally accepted in the United States of America. In our report dated December 21,
2001 (Attachment 2) we stated that in our opinion the OSM’s consolidated balance sheet
presents fairly, in all material respects, the financial position of OSM as of September 30,
2000, in conformity with accounting principles generally accepted in the United States of
America.

       KPMG did not note any material weaknesses related to internal controls over
financial reporting. With regard to compliance with laws and regulations, KPMG
disclosed no instances of noncompliance that are required to be reported or instances
where OSM’s financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act of 1996.

         Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the OIG to
list this report in its semiannual report to the United States Congress.

        The Independent Auditor’s Report is intended for the information of the
management of OSM, the Office of Management and Budget, and the United States
Congress. This report, however, is a matter of public record, and its distribution is not
limited.


Attachments (2)


[CONTACT THE OFFICE OF SURFACE MINING RECLAMATION AND
ENFORCEMENT FOR INFORMATION ON ITS FINANCIAL STATEMENTS FOR
FISCAL YEAR 2001, WHICH ARE NOT INCLUDED.]
                               Attachment 1




       A COPY OF THE

INDEPENDENT AUDITOR’S REPORT

IS ON THE PAGES THAT FOLLOW.
           707 Seventeenth Street
           Suite 2300
           Denver, CO 80202




                                                                          Independent Auditors’ Report


The Director of the Office of Surface Mining Reclamation and Enforcement
 and the Inspector General of the Department of the Interior:

We have audited the accompanying consolidated balance sheet of the Office of Surface Mining
Reclamation and Enforcement (OSM) as of September 30, 2001, and the related consolidated statements of
net cost, changes in net position, and financing and the combined statement of budgetary resources for the
year then ended (hereinafter referred to as financial statements). The objective of our audit was to express
an opinion on the fair presentation of these financial statements. In connection with our audit, we also
considered the OSM’s internal control over financial reporting and tested the OSM’s compliance with
certain provisions of applicable laws and regulations that could have a direct and material effect on its
financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the OSM’s financial statements as
of and for the year ended September 30, 2001 are presented fairly, in all material respects, in conformity
with accounting principles generally accepted in the United States of America.
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. However, we noted no matters involving the
internal control and its operation that we considered to be material weaknesses as defined below in the
Internal Control Over Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations, exclusive of the
Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no instances of
noncompliance that are required to be reported herein under Government Auditing Standards or Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements.
The following sections discuss our opinion on the OSM’s financial statements, our consideration of the
OSM’s internal control over financial reporting, our tests of the OSM’s compliance with certain provisions
of applicable laws and regulations, and management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheet of the OSM as of September 30, 2001, and
the related consolidated statements of net cost, changes in net position, and financing and the combined
statement of budgetary resources for the year then ended.

           KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
           a member of KPMG International, a Swiss association.
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the OSM as of September 30, 2001, and its net cost of operations, changes in net
position, budgetary resources, and reconciliation of net cost of operations to budgetary obligations for the
year then ended in conformity with accounting principles generally accepted in the United States of
America.

The information in the Management’s Discussion and Analysis section is not a required part of the
financial statements, but is supplementary information required by the Federal Accounting Standards
Advisory Board and OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, as
amended. We have applied certain limited procedures which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.
Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Supplementary Statement of Budgetary Resources by Major Budget
Accounts is presented for purposes of additional analysis and is not a required part of the financial
statements. Such information has been subjected to the auditing procedures applied in the audit of the
financial statements and, in our opinion, is fairly stated, in all material respects, in relation to the financial
statements taken as a whole.

Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are conditions in which the
design or operation of one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in any internal control, misstatements
due to error or fraud may occur and not be detected. We noted no matters involving the internal control and
its operation that we consider to be material weaknesses as defined above. However, we noted other
matters involving internal control over financial reporting and its operation that we have reported to the
management of the OSM in a separate letter dated December 21, 2001.

Compliance With Laws and Regulations
The results of our tests of compliance with the laws and regulations described in the responsibilities section
of this report, exclusive of FFMIA, disclosed no instances of noncompliance that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements.
The results of our tests of FFMIA disclosed no instances in which the OSM’s financial management
systems did not substantially comply with the three requirements discussed in the responsibilities section of
this report.

Responsibilities
Management’s Responsibility
The Government Management Reform Act of 1994 (GMRA) requires a federal agency to report annually
to Congress on its financial status and any other information needed to fairly present its financial position
and results of operations. To meet the GMRA reporting requirements, the OSM prepares annual financial
statements.



                                                            2
Management is responsible for:

•     Preparing the financial statements in conformity with accounting principles generally accepted in the
      United States of America;
•     Establishing and maintaining internal control over financial reporting and performance measures;
      and
•     Complying with laws and regulations, including FFMIA.
In fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies.

Auditors’ Responsibility
Our responsibility is to express an opinion on the fiscal year 2001 financial statements of the OSM based
on our audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 01-02. Those
standards and OMB Bulletin No. 01-02 require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement.

An audit includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our fiscal year 2001 audit, we considered the OSM’s internal control over
financial reporting by obtaining an understanding of the OSM’s internal control, determining whether
internal control had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
control relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on internal control over financial
reporting. Consequently, we do not provide an opinion on internal control over financial reporting.

As required by OMB Bulletin No. 01-02, with respect to internal control related to performance measures
determined by management to be key and reported in Management’s Discussion and Analysis, we obtained
an understanding of the design of significant internal control relating to the existence and completeness
assertions. Our procedures were not designed to provide assurance on internal control over performance
measures and, accordingly, we do not provide an opinion on such controls.
As part of obtaining reasonable assurance about whether the OSM’s fiscal year 2001 financial statements
are free of material misstatement, we performed tests of the OSM’s compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws and regulations applicable to the OSM. Providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express such an opinion.

                                                         3
Under FFMIA, we are required to report whether the OSM’s financial management systems substantially
comply with (1) federal financial management systems requirements, (2) applicable federal accounting
standards, and (3) the United States Government Standard General Ledger at the transaction level. To meet
this requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

Distribution
This report is intended for the information and use of the OSM and Department of the Interior’s
management, Department of the Interior’s Office of Inspector General, OMB, and the U.S. Congress, and
is not intended to be and should not be used by anyone other than these specified parties.




December 21, 2001




                                                       4
                                                                               Attachment 2

            United States Department of the Interior

                              Office of Inspector General
                                   Washington, D.C. 20240




                         Independent Auditors’ Report

To:        Director, Office of Surface Mining Reclamation and Enforcement

Subject:   Office of Surface Mining Reclamation and Enforcement’s Financial
           Statements for Fiscal Year 2000

We have audited the Office of Surface Mining Reclamation and Enforcement’s (OSM)
consolidated balance sheet and related notes as of September 30, 2000. The objective of
our audit was to express an opinion on the fair presentation of the consolidated balance
sheet. This financial statement is the responsibility of the OSM, and our responsibility is
to express an opinion, based on our audit, on this financial statement.

We conducted our audit in accordance with the auditing standards generally accepted in
the United States of America: the standards for financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and with
Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements. These standards and OMB Bulletin No. 01-02 require that
we plan and perform the audit to obtain reasonable assurance as to whether the
accompanying balance sheet is free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures contained in
the consolidated balance sheet and the accompanying notes. An audit also includes
assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall balance sheet presentation. We believe
that our audit of the balance sheet provides a reasonable basis for our opinion.

In our opinion, the consolidated balance sheet referred to above presents fairly, in all
material respects, the financial position of the OSM as of September 30, 2000 in
conformity with accounting principles generally accepted in the United States of
America.

During 2001, OSM became aware of certain payments that should have been accrued in
the consolidated financial statements in 2000. As discussed in Note 20 to the financial
statements, accounts payable with the public and net position have been restated to reflect
these differences. The effect of these restatements increased accounts payable with the
public and decreased net position by $42,869,000.
In our report dated March 7, 2001, we expressed an opinion that OSM’s statement of net
cost for the year ended September 30, 2000 presented fairly, in all material respects, its
net cost of operations in conformity with accounting principles generally accepted in the
United States of America. As described in Note 19, OSM has restated its statement of net
cost for the year ended September 30, 2000 to conform with the presentation of net cost
for the year ended September 30, 2001. We did not audit the restated statement of net
cost for the year ended September 30, 2000, and accordingly, we do not express an
opinion on this statement.




Roger La Rouche
Assistant Inspector General for Audits
March 7, 2001, except for Note 20
as to which the date is December 21, 2001
